TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Some Tax-Exempt Organizations Have
                      Substantial Delinquent Payroll Taxes



                                            July 3, 2014

                              Reference Number: 2014-10-012




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


SOME TAX-EXEMPT ORGANIZATIONS                          tax-exempt organizations with unpaid tax).
HAVE SUBSTANTIAL DELINQUENT                            These organizations generally received
PAYROLL TAXES                                          government payments over a three-year period
                                                       of $148 million, including Medicare, Medicaid,
                                                       and government grants; had annual revenue of
Highlights                                             almost $167 million; and owned assets of more
                                                       than $97 million, but continued to not remit
                                                       payroll and other taxes, including penalties and
Final Report issued on July 3, 2014
                                                       interest, totaling more than $25 million.
Highlights of Reference Number: 2014-10-012            The Internal Revenue Code does not authorize
to the Internal Revenue Service Commissioner           the IRS to revoke tax-exempt status based on
for the Tax Exempt and Government Entities             an organization’s failure to pay payroll taxes,
Division.                                              and most of the organizations that TIGTA
                                                       reviewed were still recognized by the IRS as
IMPACT ON TAXPAYERS                                    tax-exempt as of May 2013. The Exempt
While tax-exempt organizations are generally           Organizations function had completed several
not required to pay income taxes, they are             examinations but was generally not aware of the
generally required to pay other taxes such as          behavior of the organizations because another
payroll taxes. Tax-exempt organizations that do        IRS business unit is responsible for collecting
not pay their taxes result in millions of dollars in   the delinquent tax debt.
lost tax revenue.
                                                       WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                                TIGTA recommended that the Director, Exempt
The overall objectives of this review were to          Organizations: 1) coordinate with Small
determine if, and to what extent, tax-exempt           Business/Self-Employed Division management
organizations have known Federal tax debt and          to receive relevant collection information,
to identify actions the Exempt Organizations           2) periodically complete analyses to identify
function has taken to address this                     tax-exempt organizations that potentially abuse
noncompliance.                                         their tax-exempt status for examination (if
                                                       necessary), and 3) work with the Department of
WHAT TIGTA FOUND                                       the Treasury to evaluate whether a legislative
                                                       proposal is warranted to strengthen the
IRS records indicate that the majority of
                                                       IRS’s ability to enforce payroll tax
tax-exempt organizations pay their Federal
                                                       noncompliance by tax-exempt organizations.
taxes. However, a small percentage are not
paying their taxes. More than 64,200                   In their response to the report, IRS management
(3.8 percent) tax-exempt organizations had             disagreed with the first two recommendations
nearly $875 million of Federal tax debt as of          and agreed to apprise the Department of the
June 16, 2012. While some organizations owed           Treasury of our third recommendation. TIGTA
minor amounts, approximately 1,200 tax-exempt          believes that the Exempt Organizations function
organizations owed more than $100,000 each.            should do more to oversee tax-exempt
Unpaid taxes were often associated with                organizations that repeatedly fail to remit payroll
multiple tax periods. For example, nine                taxes, which include Medicare, Social Security,
organizations each had Federal tax debt                and Federal income taxes withheld from
spanning 10 or more years that collectively            employees. This is particularly important since
totaled more than $5.5 million.                        these organizations have the benefit of
                                                       charitable status, and the Government has paid
TIGTA reviewed 25 tax-exempt organizations—
                                                       them millions of dollars of Medicare and
under Internal Revenue Code § 501(c)(3)—that
                                                       Medicaid funds.
appeared to be among the worst examples
involving unpaid Federal tax (but not
representative of the population of all
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             July 3, 2014


 MEMORANDUM FOR OFFICE OF THE DEPUTY COMMISSIONER FOR
                SERVICES AND ENFORCEMENT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Some Tax-Exempt Organizations Have
                             Substantial Delinquent Payroll Taxes (Audit # 201310026)

 This report presents the results of our review on tax-exempt organizations having substantial
 delinquent payroll taxes. The overall objectives of this review were to determine if, and to what
 extent, tax-exempt organizations have known Federal tax debt and to identify actions the Exempt
 Organizations function has taken to address this noncompliance. This audit is included in our
 Fiscal Year 2014 Annual Audit Plan and addresses the major management challenge of Tax
 Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VIII. We have
 concerns about the accuracy of certain statements in the IRS’s response to our report. We have
 noted these concerns in Appendix IX.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Gregory D. Kutz,
 Assistant Inspector General for Audit (Management Services and Exempt Organizations).
                                             Some Tax-Exempt Organizations Have
                                              Substantial Delinquent Payroll Taxes




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          Tax-Exempt Organizations Owe Millions in Federal
          Tax Debt........................................................................................................ Page 6
          Selected Tax-Exempt Organizations Were Involved in
          Potentially Criminal or Abusive Activity Related to the
          Federal Tax System....................................................................................... Page 10
                    Recommendation 1:........................................................ Page 16

                    Recommendations 2 and 3: .............................................. Page 17

          Actions Were Taken to Identify Tax-Exempt Organizations
          With Federal Tax Debt.................................................................................. Page 18

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 20
          Appendix II – Major Contributors to This Report ........................................ Page 23
          Appendix III – Report Distribution List ....................................................... Page 24
          Appendix IV – Types of Internal Revenue Code Section 501(c)
          Tax-Exempt Organizations ........................................................................... Page 25
          Appendix V – The Amount of Federal Tax Debt Is Understated
          for Tax-Exempt Organizations...................................................................... Page 27
          Appendix VI – Tax and Wage Forms Referred to in This Report ................ Page 28
          Appendix VII – Glossary of Terms .............................................................. Page 29
          Appendix VIII – Management’s Response to the Draft Report ................... Page 31
          Appendix IX – Office of Audit Comments on Management’s Response .... Page 36
           Some Tax-Exempt Organizations Have
            Substantial Delinquent Payroll Taxes




               Abbreviations

EO       Exempt Organizations
GAO      Government Accountability Office
I.R.C.   Internal Revenue Code
IRS      Internal Revenue Service
TIGTA    Treasury Inspector General for Tax Administration
                                     Some Tax-Exempt Organizations Have
                                      Substantial Delinquent Payroll Taxes




                                            Background

The Internal Revenue Service (IRS) reported a net
Tax Gap1 of $385 billion as of Tax Year 2006.2 The                   Part of the $385 billion net
Tax Gap is defined as the amount of tax liability owed              Tax Gap can be attributed to
                                                                   unreported or unpaid Federal
by taxpayers that is not paid on time. A significant                        payroll taxes.
portion of this Tax Gap involves taxpayers that do not
report and pay all the payroll taxes they owe
($72 billion) as well as taxpayers that do report the payroll taxes they owe but do not pay them
($4 billion). Part of this is attributable to organizations that are exempt from paying income tax
under Section (§) 501(a) of the Internal Revenue Code (I.R.C.)3 but are generally responsible for
payroll and certain other taxes.
IRS data indicates that nearly 1.7 million organizations in various classifications are currently
recognized as being tax exempt. Charitable organizations (I.R.C. § 501(c)(3)) constitute the
largest classification, accounting for almost 67 percent of all tax-exempt organizations.4 Other
classifications of tax-exempt organizations include civic and business leagues, labor
organizations, recreational clubs, domestic fraternal societies, and credit unions.5 Differences
between the various classifications include whether donations to the tax-exempt organizations
are tax deductible and whether tax-exempt organizations are required to submit an application to
the IRS for recognition of their tax-exempt status. For example, donations to certain tax-exempt
organizations, such as charitable organizations, certain veteran’s organizations, and certain
cemetery companies, are deductible on the donor’s individual tax return.6 However, donations to
other organizations are not deductible.
Organizations seeking deductible donations, with the exception of churches and certain small
organizations, must apply with the IRS, which then determines whether the request for
tax-exempt status should be granted.7 Generally, each tax-exempt organization is required to file


1
  See Appendix VII for a glossary of terms.
2
  This is the latest data the IRS has available.
3
  I.R.C. § 501(a) grants an exemption from Federal income taxes to organizations that meet certain requirements in
I.R.C. § 501(c) or (d). Other sections of the I.R.C. also exempt certain organizations from Federal income taxes,
including § 527.
4
  Information on the number of tax-exempt organizations was obtained from the IRS’s Exempt Organizations Master
File as of December 2012, and the percentage classified under I.R.C. § 501(c)(3) was obtained from the
IRS’s Statistics of Income Division as of September 2012.
5
  See Appendix IV for a list of types of I.R.C. § 501(c) tax-exempt organizations.
6
  I.R.C. § 170.
7
  I.R.C. § 508(a).
                                                                                                          Page 1
                                      Some Tax-Exempt Organizations Have
                                       Substantial Delinquent Payroll Taxes



an annual information return or notice8 that provides the IRS with information about the
organization, operations, officers, and directors. A tax-exempt organization’s annual information
return also provides the public with key information about the organization.
Similar to for-profit employers, tax-exempt organizations with compensated employees are
required to pay payroll taxes that are withheld from employees’ wages “in trust” for the Federal
Government as well as other applicable Federal taxes. Payroll taxes required to be withheld
from employees by the tax-exempt organization generally consist of income taxes;9 Old
Age, Survivors, and Disability Insurance, commonly referred to as Social Security; and
Medicare.10 To the extent that these payroll taxes are withheld and not forwarded to the IRS,
individuals within the business (e.g., tax-exempt organization officials) may be held personally
liable. They can also be assessed a civil monetary penalty known as a Trust Fund Recovery
Penalty.11 Willful failure to remit payroll taxes is a felony under U.S. law, punishable by a fine,
imprisonment, or both, and the failure to properly segregate payroll taxes can be a criminal
misdemeanor offense.12
A Fiscal Year 2008 Government Accountability Office (GAO) report13 indicated that “while
most businesses fulfill their fiduciary responsibility to the government to withhold taxes from
their employee’s salaries, make matching contributions, and remit these sums to the government,
a significant number do not. As of September 30, 2007, IRS’s records showed that more than
1.6 million businesses owed more than $58 billion in unpaid payroll taxes, including interest and
penalties.”
In addition, a GAO report issued in June 200714 stated that while most tax-exempt organizations
appeared to pay their Federal taxes, tens of thousands abused the Federal tax system. The
GAO’s analysis determined that approximately 55,000 (3.1 percent) of the nearly 1.8 million
tax-exempt organizations owed almost $1 billion in Federal tax debt.




8
  See Appendix VI for a list of tax and wage forms cited in this report. Tax-exempt organizations are required to file
IRS Form 990, Form 990-EZ, or Form 990-N. Churches and certain other tax-exempt organizations with less than
$50,000 in annual revenues are not required to file.
9
  I.R.C. § 3402.
10
   Social Security is taxed at 6.2 percent on the first $113,700, and Medicare is taxed at 1.45 percent with no income
cap. Tax rates and wage limits are as of Tax Year 2013. Employers are also taxed, at the same rates, for Social
Security and Medicare on employee wages.
11
   I.R.C. § 6672.
12
   I.R.C. §§ 7202, 7215, and 7512(b).
13
   GAO, GAO-08-617, Tax Compliance: Businesses Owe Billions in Federal Payroll Taxes (July 2008). The
number reported by the GAO is total unpaid payroll taxes. This includes all balance due accounts for which
collection statutes (generally 10 years) have not expired.
14
   GAO, GAO-07-563, Thousands of Organizations Exempt from Federal Income Tax Owe Nearly $1 Billion in
Payroll and Other Taxes (June 2007).
                                                                                                              Page 2
                                 Some Tax-Exempt Organizations Have
                                  Substantial Delinquent Payroll Taxes



      Approximately 1,500 tax-exempt organizations owed more than $100,000 each, which
       accounted for $600 million of the $1 billion, with some owing more than $10 million
       each.
      Twenty-five tax-exempt organizations and top officials investigated were involved in
       abusive activity including: 1) repeated failure to remit payroll taxes withheld from
       employees; 2) diversion of money to fund their operations, including paying top officials
       large salaries ranging from hundreds of thousands of dollars to more than $1 million
       while the officials accumulated substantial assets such as million-dollar homes and
       luxury vehicles; and 3) criminal activities committed by key officials and employees,
       including attempted bribery of an IRS official and illegal gambling.
In addition to not paying payroll and other taxes, the GAO found that more than
1,200 tax-exempt organizations with unpaid payroll and other taxes received more than
$14 billion in direct Federal grants in Fiscal Years 2005 and 2006. Grant applicants that apply
directly to the Federal Government are required to complete Standard Form 424, Application for
Federal Assistance, which requires applicants to certify whether they are delinquent on any
Federal debt, including Federal tax debt.
In response to the June 2007 GAO report, IRS management stated that the IRS would enhance
tax-exempt organizations’ tax compliance efforts by analyzing discrepancies between payroll tax
data reported to the Social Security Administration and data reported to the IRS and by piloting a
new modeling program to identify tax-exempt organizations with a high risk of payroll tax
noncompliance.
The IRS maintains a file of all “unpaid assessments.” These unpaid assessments are legally
enforceable claims against taxpayers and consist of taxes, penalties, and interest that have not
been paid or abated. For the purposes of this report, we refer to these unpaid assessments as
Federal tax debts. These Federal tax debts are generally created when a taxpayer files a return
without full payment, an IRS audit identifies additional amounts owed, or the IRS makes
adjustments to correct inaccuracies on a return. In addition, a Federal tax debt can be identified
as a part of IRS enforcement programs. These enforcement programs generally identify
taxpayers who fail to file or timely file required Federal returns, accurately report their taxes, or
voluntarily pay the amount of taxes due. The IRS classifies its total Federal tax debt inventory
into the following four categories:
      Taxes receivable: Assessments that are self-assessed by the taxpayer, an agreed
       examination, a court ruling in favor of the IRS, etc.
      Compliance: Assessments not agreed to by the taxpayer.
      Write-Offs: Assessments that the IRS still has the statutory authority to collect but for
       which there is no collection potential.


                                                                                                Page 3
                                   Some Tax-Exempt Organizations Have
                                    Substantial Delinquent Payroll Taxes



        Memo: Assessments that are not receivables according to Federal financial standards,
         including duplicate assessments, assessments due to a fraudulent return filed by a
         taxpayer, assessments involving many tax periods with related or intermingled issues,
         and instances in which an examination/appeal will not be resolved for more than
         one year.
Under Federal accounting standards, Federal tax debts require taxpayer or court agreement to be
considered Federal tax receivables. Because of this distinction, when we refer to Federal tax
debts in this report, we are referring to those debts that require taxpayer or court agreement that
are classified by the IRS as taxes receivable as well as write-offs. Compliance and memo
assessments are not considered Federal taxes receivable because they have not been agreed to by
the taxpayers or the courts.
The Exempt Organizations (EO) function of the IRS Tax Exempt and Government Entities
Division is responsible for promoting compliance with the I.R.C. by tax-exempt organizations.
The EO function Examination Program’s activities include analyzing the operational and
financial activities of tax-exempt organizations and developing processes to identify areas of
noncompliance, developing corrective strategies, and assisting other tax-exempt organization
functions in implementing these strategies. The EO function Examination Program may assess
payroll or other taxes and ask for payment of the delinquent tax.
However, if the tax-exempt organization does not make payment, the matter is referred to the
IRS’s Small Business/Self-Employed Division, which is responsible for collecting the delinquent
debt. This division may use collection means such as Federal tax liens, levies, and seizures and
may assess a Trust Fund Recovery Penalty against tax-exempt organization officials. In
testimony, the former Commissioner, Tax Exempt and Government Entities Division, stated
that “Compliance with payroll tax rules is not, in general, a requirement for continuing
recognition as a tax-exempt organization. In exceptional circumstances, revocation of
I.R.C. § 501(c)(3) exempt status for violation of payroll tax provisions, while an extraordinary
measure, may be warranted where the violation of payroll tax law is so substantial that the
organizations can be found to have a substantial nonexempt purpose.”15 The former
Commissioner, Tax Exempt and Government Entities Division, also stated that the IRS had not
revoked the tax-exempt status of any organization solely because of payroll tax noncompliance.
Treasury Inspector General for Tax Administration (TIGTA) auditors received information from
the Small Business/Self-Employed Division in Washington, D.C., and interviewed and received
information from the Tax Exempt and Government Entities Division’s EO function in
Dallas, Texas; Ogden, Utah; and Washington, D.C., during the period January 2013 through
January 2014. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to

15
  Testimony of Steven T. Miller, Commissioner, Tax Exempt and Government Entities, IRS, Before the Oversight
Subcommittee, House Ways and Means Committee (May 25, 2006).
                                                                                                      Page 4
                              Some Tax-Exempt Organizations Have
                               Substantial Delinquent Payroll Taxes



obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. Detailed
information on our audit objectives, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                        Page 5
                                      Some Tax-Exempt Organizations Have
                                       Substantial Delinquent Payroll Taxes




                                      Results of Review

Tax-Exempt Organizations Owe Millions in Federal Tax Debt
IRS records indicate that the majority of tax-exempt organizations pay their taxes. However, a
small percentage of these organizations are still not paying their Federal taxes and are abusing16
the Federal tax system. We determined that more than 64,20017 (3.8 percent) tax-exempt
organizations accumulated nearly $875 million18 in Federal tax debt as of June 16, 2012.19 While
some organizations owed minor amounts, approximately 1,200 tax-exempt organizations owed
more than $100,000 each. Taxes owed were associated with from one tax return to more than
40 payroll tax returns. For example, nine organizations each owed payroll taxes, including
related penalties and interest, spanning 10 or more years that collectively total more than
$5.5 million.
We reviewed a judgmental sample20 of 25 I.R.C. § 501(c)(3) tax-exempt organizations that
appeared to be among the worst examples21 involving Federal tax debt. These organizations are
not representative of the population of all tax-exempt organizations with delinquent taxes. Our


16
   We considered activity to be abusive when a tax-exempt organization’s actions (e.g., repeated failure to forward
payroll taxes to the IRS, which include amounts withheld from employees for Federal income, Social Security, and
Medicare taxes that are required to be held “in trust” for the Federal Government but instead are retained by the
tax-exempt organization for other purposes, including payment of salaries for executives) took advantage of the
existing tax enforcement and administration system to avoid fulfilling Federal tax obligations and were deficient or
improper when compared with behavior that a prudent person would consider reasonable.
17
   This number is rounded for presentation purposes.
18
   This amount only includes tax debts that tax-exempt organizations or courts have agreed to, which have been
recorded on the IRS’s computer system. This amount is also understated. See Appendix V for additional details. In
addition, IRS officials stated that some information on Federal tax debt that TIGTA used for this analysis could be
classified incorrectly by IRS systems. However, IRS management agreed that any inaccuracies would be immaterial
for our findings and conclusions.
19
   Approximately 9,200 of these tax-exempt organizations had a repayment plan with the IRS to pay back Federal
tax debt of more than $74 million. Some of the difference between the Federal tax debt reported by the GAO in
June 2007 and the Federal tax debt owed as of June 16, 2012, could be due to the fact that a large number of
tax-exempt organizations had their tax-exempt status automatically revoked (after the June 2007 GAO report was
issued) for not filing tax-exempt organization returns (Forms 990) for three consecutive years. In addition,
EO function management stated that the overall decrease in unpaid payroll tax could be attributed, in part, to the
IRS’s focus on identifying and reducing delinquent payroll tax through the use of the Combined Annual Wage
Report program described later in this report.
20
   A judgmental sample is nonstatistical and cannot be used to project to the population.
21
   These organizations are not representative of all delinquent organizations but appear to be among the worst
examples of the more than 64,200 tax-exempt organizations with delinquent Federal taxes. Thus, the results from
these 25 cases cannot be projected to the more than 64,200 tax-exempt organizations with delinquent Federal taxes.
                                                                                                            Page 6
                                        Some Tax-Exempt Organizations Have
                                         Substantial Delinquent Payroll Taxes



analysis determined that these organizations generally receive funds from Medicare, Medicaid,
and government grants22 to finance operations; own substantial assets; continue to not remit
payroll and other taxes, including penalties and interest; and are involved in potential criminal
and abusive activity. The IRS tried to resolve the tax liabilities, and collection action had been
taken on all 25 tax-exempt organizations and most officers of the organizations that we
reviewed. Most of the organizations we reviewed were still recognized by the IRS as tax-exempt
as of May 16, 2013. Federal statutes do not authorize the IRS to revoke tax-exempt status based
on an organization’s failure to pay payroll taxes or to require changes in the board of directors or
the executives responsible for an organization’s tax compliance problems.
The GAO had performed a similar analysis and reported in June 2007 that nearly
55,000 tax-exempt organizations owed almost $1 billion in Federal tax debt as of
September 30, 2006. The GAO selected 25 tax-exempt organizations and determined that,
despite repeatedly abusing the Federal tax system, these entities continued to retain their
tax-exempt status. This continued abuse costs the Federal Government millions of dollars in lost
revenue.

Characteristics of tax-exempt organizations Federal tax debt
As shown in Figure 1, as of June 2012, about 69 percent of the nearly $875 million in Federal tax
debt is comprised of payroll taxes and related penalties and interest, as compared to 71 percent as
of Fiscal Year 2006. About 4 percent, or more than $39 million as of June 16, 2012, is related to
annual reporting penalties. The IRS imposes reporting penalties on entities that fail to file annual
returns, fail to file annual returns timely, or file inaccurate returns. The remaining 27 percent of
the nearly $875 million in Federal tax debt consisted of unrelated business income, excise, and
other types of taxes. However, the nearly $875 million in Federal tax debt is understated because
the amount does not include unfiled or underreported payroll taxes, recently assessed and
disputed debt, and unagreed debt. See Appendix V for additional information.




22
     Information from Forms 990 generally does not differentiate State and Federal grants.
                                                                                             Page 7
                                     Some Tax-Exempt Organizations Have
                                      Substantial Delinquent Payroll Taxes



                  Figure 1: Comparison of TIGTA and GAO Analysis
             of Federal Tax Debt of Tax-Exempt Organizations by Tax Type
                       TIGTA                                                       GAO
                (as of June 16, 2012)                                   (as of September 30, 2006)




Source: TIGTA analysis of IRS Taxpayer Service and         Source: GAO, GAO-07-563 (June 2007).
Returns Processing report data.

A significant amount of the Federal tax debt accumulated by tax-exempt organizations has been
outstanding for several years. As reflected in Figure 2, while the majority of the nearly
$875 million in Federal tax debt as of June 16, 2012, originated from tax periods 2007 through
2012, more than a quarter of the debt originated in tax periods prior to 2007.23 The age of
outstanding tax-exempt organization Federal tax debt originating in the five-and-a-half–year
period ending as of June 16, 2012, is comparable to that in the GAO’s analysis as of the
five-year period ending September 30, 2006.




23
  The $875 million includes all agreed amounts, dating back to Tax Year 1981, that the IRS considers as being
within the time period for collection.
                                                                                                           Page 8
                                   Some Tax-Exempt Organizations Have
                                    Substantial Delinquent Payroll Taxes



                 Figure 2: Comparison of TIGTA and GAO Analysis of
              Age of Federal Tax Debt Owed by Tax-Exempt Organizations
                      TIGTA                                                GAO
               (as of June 16, 2012)                             (as of September 30, 2006)




Source: TIGTA analysis of IRS Taxpayer Service and   Source: GAO, GAO-07-563 (June 2007).
Returns Processing report data.

The age of delinquent debt is important because the likelihood of collecting all or a portion of the
amount owed decreases over time.24 This is, in part, because of the continued accrual of interest
and penalties on the outstanding tax debt. Our analysis of IRS data found that a small number of
tax-exempt organizations owed most of the nearly $875 million in Federal tax debt:
        Over 1,200 tax-exempt organizations owed a total of nearly $656 million (these
         organizations each owed more than $100,000, with five each owing more than
         $10 million).
        Nearly 7,000 tax-exempt organizations each owed from $10,000 to $100,000.
        More than 56,000 tax-exempt organizations each owed less than $10,000.




24
 GAO, GAO-01-42, Internal Revenue Service: Recommendations to Improve Financial and Operational
Management (Nov. 2000).
                                                                                                  Page 9
                                     Some Tax-Exempt Organizations Have
                                      Substantial Delinquent Payroll Taxes



Selected Tax-Exempt Organizations Were Involved in Potentially
Criminal or Abusive Activity Related to the Federal Tax System
We reviewed a judgmental sample of 25 tax-exempt organizations that appeared to be among the
worst examples of organizations with significant unpaid Federal tax debts that are involved in
potentially criminal or abusive activity, or both, related to the Federal tax system. The amount of
Federal tax debt associated with these 25 I.R.C. § 501(c)(3) organizations totaled more than
$25 million and ranged from more than $300,000 to more than $3 million per organization.25 All
25 tax-exempt organizations that we reviewed had unpaid payroll taxes (including related
penalties and interest), some dating as far back as the early 2000s and some with histories of not
paying tax back to the 1990s.

*******************************************1*******************************************************
*********************
**********************************1*******************************************
**********************************1*******************************************
**********************************1*******************************************
**********************************1*******************************************
**********************************1*******************************************
**********************************1**************************************.
**********************************1*******************************************
**********************************1*******************************************
**********************************1*******************************************
**********************************1*******************************************
***************1*******************
**********************************1*******************************************
**********************************1*******************************************
**********************************1*******************************************
**********************************1*******************************************
*********************************************************1*******************
*****************************1*****************:
        ********************************1***************************************
         ******1*******.
        ******************************1*************************************.


25
  There were 13 tax-exempt organizations with Federal tax debt of nearly $130 million that were not included in our
judgmental sample of 25 tax-exempt organizations because they did not meet our selection criteria.
                                                                                                          Page 10
                                  Some Tax-Exempt Organizations Have
                                   Substantial Delinquent Payroll Taxes



        *******************1***************************.
        ***************************1********************************************
         ***************************1****************************************.
        *****************************1********************************.
***********************************1******************************************
*****************1******************************.
**********************************1*******************************************
**********************************1*******************************************
**********************************1*******************************************
**********************************1*******************************************
***********1***********************.
******************************1****************************26 ******1*****
***********************************1******************************************
***********************************1******************************************
***********************************1******************************************
***********************************1***********************.
***********************************1******************************************
***************1********************.

Summary of tax-exempt organizations involved in abusive and potentially
criminal activity
The following is the summary results of our review of the 25 I.R.C. § 501(c)(3) organizations
that appear to be among the worst with Federal tax debt. Our review identified that, despite
receiving government payments to fund operations and being granted I.R.C. § 501(c)(3) status,
the organizations accrued more than $25 million in Federal tax debt,27 and top officials of some
tax-exempt organizations received salaries of more than $250,000 annually.
We also found that officers of the organizations were involved in abusive activity. We reviewed
a judgmental sample of 52 officers of the 25 tax-exempt organizations and determined that
22 officers28 were involved in abusive activity:
        A total of 14 officers did not voluntarily file Form 104029 personal tax returns to report
         almost $2.7 million in salaries for the three years that we reviewed.

26
   *******************************************1************************************************
*********************************************1***********************************************
************1**************.
27
   The $25 million includes unpaid payroll and other taxes and related penalties and interest.
28
    Three officers were involved in more than one type of abuse. Therefore, totals will not add up to 22.
                                                                                                 Page 11
                                     Some Tax-Exempt Organizations Have
                                      Substantial Delinquent Payroll Taxes



        A total of seven officers underreported their wages on their tax returns by nearly
         $350,000.
        A total of four officers also received Form W-2 wages from three other tax-exempt
         organizations. Collectively, tax-exempt organizations related to the four officers had
         Federal tax debt of nearly $3 million.
The 25 tax-exempt organizations received government payments of more than $148 million30 for
a three-year period. These organizations also had not paid more than $25 million in taxes,
mainly payroll taxes and related penalties and interest dating back as far as Tax Year 2001. For
a single year, the 25 organizations had total revenue, including government grants, of almost
$167 million. In addition, the 25 organizations also owned more than $97 million in assets.
Instead of paying taxes, these organizations accumulated more and more Federal tax debt while
continuing to operate with the benefits of an I.R.C. § 501 (c)(3) tax exemption.
In addition to identifying the abusive and potentially criminal activity related to the Federal tax
system, we determined that the IRS took actions to enforce the I.R.C. as it related to these
tax-exempt entities. During the collection process, revenue officers seek to get the entity in
compliance with current deposit and payment requirements and request full payment of taxes
owed.31 When taxpayers cannot fully pay the back taxes, the revenue officer may explore other
collection alternatives such as installment agreements, or attaching liens and levies to property
and assets, or assessing Trust Fund Recovery Penalties on officers of the entity.32
Figure 3 shows that 32 Federal tax liens and 21 Federal tax levies were filed by the IRS in order
to get the 25 tax-exempt organizations to pay their tax. These liens and levies were filed against
17 of 25 tax-exempt organizations and 14 of 52 officers of the tax-exempt organizations that we
reviewed.33 In addition, Trust Fund Recovery Penalties were filed against 22 of the 52 officers
we reviewed, in the amount of almost $2.4 million.




29
   Some did not file a Form 1040 in more than one year. A total of 21 Forms 1040 were not filed.
30
   We reviewed a three-year period for the judgmental sample of 25 tax-exempt organizations’ Forms 990 between
Tax Years 2006 and 2012 (but not always the same three years for each organization, and each organization did not
receive government payments in all years).
31
   Employers are generally required to pay payroll taxes periodically through the Federal Tax Deposit system.
32
   GAO, GAO-04-95, Some DOD Contractors Abuse the Federal Tax System with Little Consequence (Feb. 2004),
reported that collections of Trust Fund Recovery Penalty assessments are generally minimal.
33
   Only one lien and levy is included per tax-exempt organization and officers’ accounts. However, some accounts
had multiple liens and levies.
                                                                                                         Page 12
                                  Some Tax-Exempt Organizations Have
                                   Substantial Delinquent Payroll Taxes



                 Figure 3: Total Number of Federal Liens and Levies
             Filed Against 25 Tax-Exempt Organizations and 52 Officers




           Source: TIGTA analysis of IRS Integrated Data Retrieval System data.

While attempting to collect the delinquent tax, the IRS was sometimes faced with the dilemma of
seizing property or serving levy actions for the organization’s funds intended to support the
tax-exempt organizations that, if seized, could potentially result in closing the entity and its
services to the community. The seizure of property was discussed, but no seizures occurred for
the 25 tax-exempt organizations we reviewed. In addition, we observed that tax-exempt
organization officials sometimes individually filed for bankruptcy and requested and later
withdrew or defaulted on installment agreements.
Collection actions on 10 of the 25 tax-exempt organizations were closed as currently not
collectible, and most of the entities were still recognized by the IRS as tax-exempt organizations
as of May 16, 2013. In addition, the IRS assessed almost $2.4 million in Trust Fund Recovery
Penalties on 22 officers of these tax-exempt organizations. At the time of our audit, fewer than
five officers had made payments for a little more than $15,000 (less than 1 percent of the amount
owed), and debts were closed as currently not collectible.
In addition, Figure 4 shows that the 25 tax-exempt organizations paid 52 officers’ salaries
ranging from $35,000 to more than $250,000 annually.




                                                                                              Page 13
                                       Some Tax-Exempt Organizations Have
                                        Substantial Delinquent Payroll Taxes



                            Figure 4: Analysis of Form W-2 Wages
                        Received by Tax-Exempt Organization Officers 34
                                Tax Years 2009 Through 2011




         Source: TIGTA analysis of Forms W-2 for Tax Years 2009 through 2011. Salaries in Figure 4 are
         an annual average for this time period (not all officers received Form W-2 from the tax-exempt
         organization for all three years; only the years worked were included in the average).

When comparing the 22 Trust Fund Recovery Penalties in Figure 3 to the salary analysis in
Figure 4, we found that approximately half the penalty assessments were made during
Tax Years 2009 through 2011 and the remaining half were evenly split before and after that time
period.
We shared the results of our review of the 25 tax-exempt organizations35 with EO function
management to determine if access to the information we gathered from review of publicly
available information and collection activities would prove useful during examinations of the
tax-exempt organizations. EO function management stated that they do not receive information
from Small Business/Self-Employed Division employees responsible for collecting unpaid taxes.
They also stated that having access to publicly available information similar to what we
identified could be useful for opening examinations. In addition, they provided the following
information about the 25 tax-exempt organizations and 52 officers we reviewed:
         EO function management received seven referrals and conducted examinations on three
          of the 25 tax-exempt organizations for issues such as political campaign intervention,36

34
   The bars in Figure 4 represent the average of all salaries within that range, and the number above each bar
represents the number of officers whose wages are within that range.
35
   We located collection histories for most of the tax-exempt organizations we reviewed.
36
   I.R.C. § 501(c)(3) organizations are prohibited from participating in any political campaign on behalf of, or in
opposition to, any candidate to elective office.
                                                                                                              Page 14
                                      Some Tax-Exempt Organizations Have
                                       Substantial Delinquent Payroll Taxes



         substantial legislative activities, excessive personal benefits, inappropriate loans, and
         other fraudulent issues.
         In addition to the three examinations above, the EO function also conducted
         examinations on four of the 25 tax-exempt organizations after identifying indications of
         potential issues such as excessive executive compensation, questions on governance,37 or
         inconsistent reporting on Forms 940, Forms 941, and Forms W-2. In cases of excess
         compensation, the IRS generally tries to impose a tax on the individual who received the
         excess benefits38 rather than revoke the tax-exempt status of the organization.
        Officers for three additional tax-exempt organizations in our judgmental sample are being
         considered for Trust Fund Recovery Penalty assessments.
        Four of 25 organizations were in jeopardy of having their tax exemption automatically
         revoked for not having filed a Form 990 for three years. However, if a Form 990 is filed
         within the three-year period, the organization’s tax-exempt status will not be
         automatically revoked.
Although the I.R.C. provides exemptions from paying income taxes to organizations that meet
the exemption requirements, the I.R.C. does not provide the IRS with the means to revoke the
tax-exempt status of organizations that do not pay payroll taxes and other related penalties and
interest or to require changes in the board of directors or the executives responsible for an
organization’s tax compliance problems. Our review of the I.R.C. identified the following
circumstances in which a tax-exempt entity may have its tax-exempt status revoked.
        The Pension Protection Act of 200639 requires most tax-exempt organizations to file an
         annual information return or submit an annual electronic notice with the IRS.
         Tax-exempt organizations required to file an annual return or submit an annual electronic
         notice are subject to automatic revocation for failure to file for three consecutive years.
        Organizations recognized as tax exempt under I.R.C. § 501(c)(3) that act in a manner
         inconsistent with the I.R.C. may no longer qualify to be tax exempt. Examples include
         ceasing to engage in the activities for which the tax-exempt status was approved, having
         substantial unrelated business activities (trade or business activities unrelated to its
         tax-exempt purpose), or private benefit/inurement. In addition, organizations exempt
         under I.R.C. § 501(c)(3) are prohibited from making political contributions or



37
   Governance relates to who governs the organization, policies and practices the organization has in place, and
disclosure and transparency of certain information.
38
   In early Calendar Year 2007, the IRS reported the results of a study done on tax-exempt organizations’ executive
compensation. A result of this report was the proposed assessment of excise taxes totaling $21 million against
40 executives of nonprofit organizations whom it had determined had been paid excessively.
39
   Pub. L. No. 109-280.
                                                                                                           Page 15
                                     Some Tax-Exempt Organizations Have
                                      Substantial Delinquent Payroll Taxes



        participating in political campaigns and from influencing legislation to a substantial
        degree (lobbying).
Providing an exemption from paying income tax is recognition by the Federal Government of the
importance of services provided by charitable organizations. In addition, governments also
support tax-exempt organizations by providing revenue to fund operations.
The I.R.C. provides the IRS with the authority to approve and monitor tax-exempt organizations
and also stipulates certain circumstances under which the organization’s tax-exempt status may
be automatically revoked or when organizations may no longer qualify to be tax exempt.
Although tax-exempt organizations are generally responsible for payment of payroll and certain
other taxes, some are not paying their required taxes (including amounts withheld from their
employees) and are abusing the Federal tax system.
IRS officials informed us that revocation is an action of last resort, arrived at after evaluation of
many factors and after imposing intermediate sanctions40 to try and correct the problem. The
I.R.C. does not authorize the IRS to revoke tax-exempt status based on an organization’s failure
to pay payroll taxes or allow the IRS to require changes to the board of directors or the
executives responsible for an organization’s tax compliance problems. Therefore, tax-exempt
organizations can continue to avoid paying these taxes.

Recommendations
The Director, EO, should:
Recommendation 1: Coordinate with Small Business/Self-Employed Division management
to determine what information or systems are available from collection cases that would be
useful in identifying tax-exempt organizations potentially abusing the tax system.
        Management’s Response: The IRS disagreed with this recommendation. According
        to the IRS, the Collection functions generally do not gather information useful in
        identifying tax-exempt organizations potentially operated for the benefit of board
        members, trustees, officers, or key employees. Therefore, the EO function does not plan
        to coordinate with the IRS’s Collection functions for indications of nonexempt purpose
        and/or private inurement. However, the IRS stated that the EO function will continue to
        apply specific criteria useful in identifying tax-exempt organizations being operated
        potentially for the benefit of board members, trustees, officers, or key employees.
        Office of Audit Comment: IRS management did not agree with this recommendation
        because they believe that Collection function information relating to tax noncompliance
        for tax-exempt organizations would not be useful for the specific purpose of determining

40
  I.R.C. § 4958 provides for levying an excess benefit tax on individuals who have unduly enriched themselves at
the expense of a tax-exempt organization.
                                                                                                          Page 16
                               Some Tax-Exempt Organizations Have
                                Substantial Delinquent Payroll Taxes



       whether they were being operated for the benefit of board members, trustees, officers, or
       key employees. TIGTA did not recommend that the IRS use Collection function
       information to investigate the specific issue of whether tax-exempt organizations are
       being operated for the benefit of board members, trustees, officers, or key employees.
       For most of the 25 cases we reviewed, which were among the most egregious cases of tax
       noncompliance for tax-exempt organizations, the EO function was not aware of these
       organizations’ tax problems. In all 25 cases, the EO function had granted these
       organizations I.R.C. § 501(c)(3) status. At the same time, these organizations repeatedly
       failed to remit payroll taxes. In addition, some of these organizations were paid millions
       of dollars of Medicare and Medicaid funds and thus were benefitting from the very fund
       —the Medicare trust fund—supported by the taxes they failed to remit.
       To identify tax-exempt organizations with substantial tax problems, we used the
       IRS’s own data. Thus, the EO function could perform similar analyses using IRS data.
       We continue to believe that the EO function should use the data available that would be
       useful in identifying tax-exempt organizations potentially abusing the tax system.
Recommendation 2: Periodically complete analyses to identify tax-exempt organizations
with significant unpaid payroll and other Federal taxes and that receive funding from
government grants and pay large salaries to executives and officers. Evaluate these
organizations to determine if there are any issues that may warrant examinations.
       Management’s Response: The IRS disagreed with this recommendation. According
       to the IRS, the EO function already uses and will continue to use data analytics on the
       filings of information and taxable returns by tax-exempt organizations in determining
       indications of nonexempt purpose and/or private inurement. The IRS stated that the
       EO function will continue to apply specific criteria useful in identifying tax-exempt
       organizations being operated potentially for the benefit of board members, trustees,
       officers, or key employees.

       Office of Audit Comment: As noted above, we did not recommend that the IRS
       complete analyses to identify tax-exempt organizations that are being operated for the
       benefit of board members, trustees, officers, or key employees. Instead, we believe the
       IRS should use its own data to identify and be aware of tax-exempt organizations with
       substantial tax noncompliance. This information should be used to monitor these
       organizations and determine whether tax-exempt issues may need to be examined.

Legislative Recommendation
Recommendation 3: Work with the Department of the Treasury to evaluate whether a
legislative proposal is warranted to strengthen the IRS’s ability to enforce payroll tax
noncompliance by tax-exempt organizations.


                                                                                           Page 17
                                Some Tax-Exempt Organizations Have
                                 Substantial Delinquent Payroll Taxes



       Management’s Response: The IRS agreed with this recommendation. The IRS
       responded that, as the report recognizes, the Secretary of the Treasury has delegated the
       formulation of tax policy, including legislative initiatives, to the Assistant Secretary, Tax
       Policy. See Treasury Order 111-01 (Mar. 16, 1981); Treasury Directive 27-10
       (Oct. 15, 1990). The IRS stated that, because speculation on potential policy implications
       is beyond the scope of tax administration in this report, it will apprise the Office of Tax
       Policy of the recommendation.

Actions Were Taken to Identify Tax-Exempt Organizations With
Federal Tax Debt
In response to the 2007 GAO report, IRS Tax Exempt and Government Entities Division
management initiated two projects to enhance EO function tax compliance efforts. First,
EO function management worked with Small Business/Self-Employed Division management on
the Combined Annual Wage Report program to identify tax-exempt organizations not meeting
their payroll tax and filing obligations. Second, the EO function developed a Risk Modeling
Program to identify tax-exempt organizations with a high risk of noncompliance.
The Combined Annual Wage Report program compares wage and salary data reported to the
Social Security Administration by employers to payroll tax information reported to the IRS by
employers on Form 941 to identify and resolve any discrepancies. During the first quarter of
each calendar year, the IRS receives prior calendar year Form W-2 records from the Social
Security Administration. The Forms W-2 are sorted and summarized by payer Employer
Identification Number and matched to employers’ Form 941 tax records filed with the IRS. The
EO function then initiates examinations or compliance checks on entities that filed Form W-2
information with the Social Security Administration but have not filed the corresponding
Forms 941 with the IRS.
From Fiscal Years 2007 through 2012, the EO function Examination Program conducted the
following Combined Annual Wage Report projects:
      The Credit Balance project was based on organizations that paid the tax due without
       filing the appropriate tax return with the IRS.
      The Federal Unemployment Tax Act project was a compliance check to secure
       delinquent tax forms and to ensure that the tax-exempt organizations are in full
       compliance with all of their tax filing requirements.
      The Employment Tax project focused on tax-exempt organizations whose reported
       amounts on Forms W-2 to the Social Security Administration and on Forms 941 or
       Forms 944 to the IRS showed a difference of at least $40,000.
EO function management stated that the Combined Annual Wage Report program has been
successful. The Combined Annual Wage Report projects resulted in the EO function closing
                                                                                            Page 18
                               Some Tax-Exempt Organizations Have
                                Substantial Delinquent Payroll Taxes



examinations of almost 9,000 returns and assessing tax and penalties of more than $57 million.
However, it is unknown by EO function management how much of the $57 million was collected
because the projects did not focus on collecting the delinquent tax, which is a responsibility of
the Small Business/Self-Employed Division.
For the Risk Modeling Program, the Risk Model was designed to electronically identify the tax
returns of noncompliant organizations, facilitate the development of EO function noncompliance
risk assessment strategies, and reduce the taxpayer burden associated with the examination of
compliant organizations. The program focused on several areas including overall
noncompliance, unrelated business income, payroll tax, and (in certain instances) gaming. While
successful in some areas, the program was not as successful at predicting noncompliance for
payroll tax issues and needed additional testing prior to implementation for widespread use. The
program was discontinued in Fiscal Year 2010 due to revisions to the Forms 990.
EO function management plans to continue working the Combined Annual Wage Report
projects, and their Compliance Strategies Critical Initiatives group, which identifies areas of
noncompliance and develops strategies to improve compliance through examinations, is working
to develop a program similar to the Risk Modeling Program. However, there is no timeline for
when the program will be completed.




                                                                                         Page 19
                                      Some Tax-Exempt Organizations Have
                                       Substantial Delinquent Payroll Taxes



                                                                                                    Appendix I

         Detailed Objectives, Scope, and Methodology

Our overall objectives were to determine if, and to what extent, tax-exempt organizations have
known Federal tax debt and to identify actions the EO function has taken to address tax-exempt
organizations’ noncompliance. To accomplish our objectives, we:
I.       Determined if, and to what extent, tax-exempt organizations have known Federal tax
         debt.
         A. Obtained the EO Master File1 population of tax-exempt entities as of December 2012
            from the TIGTA Data Center Warehouse and eliminated those without a current tax
            exemption. We accomplished this by using codes on the EO Master File indicating
            the most recent exemption status of an organization. For consistency, we used codes
            similar to those used in the June 2007 GAO report.2
         B. Matched the current tax-exempt organizations identified from Step I.A. to
            IRS Taxpayer Service and Returns Processing Category data to identify tax-exempt
            organizations that have Federal tax debt as of June 16, 2012, the latest date for which
            data were available.
         C. Determined the IRS EO Master File and Taxpayer Service and Returns Processing
            Category data were sufficiently reliable for our purpose through observation of data
            fields and through testing a judgmental sample3 of cases. Testing was completed to
            determine that dollar fields contained monetary amounts, date fields contain dates,
            etc., and that any material blank fields were explainable. In addition, data from a
            judgmental sample of 25 tax-exempt organizations identified from the Taxpayer
            Service and Returns Processing Category data were compared to data from the
            Integrated Data Retrieval System and Forms 990.4 See Step II.A.
         D. Compared the results of the Taxpayer Service and Returns Processing Category
            analysis to results from the June 2007 GAO report.



1
  See Appendix VII for a glossary of terms.
2
  GAO, GAO-07-563, Thousands of Organizations Exempt from Federal Income Tax Owe Nearly $1 Billion in
Payroll and Other Taxes (June 2007).
3
  A judgmental sample is nonstatistical and cannot be used to project to the population.
4
  See Appendix VI for a list of tax and wage forms cited in this report. Tax-exempt organizations are required to file
  IRS Form 990, Form 990-EZ, or Form 990-N. Churches and certain other tax-exempt organizations with less than
  $50,000 in annual revenues are not required to file.
                                                                                                             Page 20
                               Some Tax-Exempt Organizations Have
                                Substantial Delinquent Payroll Taxes



II.    Reviewed a judgmental sample of executives and officers of tax-exempt organizations
       with large unpaid payroll taxes to identify potential abusive and criminal activity.
       A. Chose a judgmental sample of 25 current tax-exempt organizations from the
          population of 64,200 tax-exempt organizations from Taxpayer Service and Returns
          Processing Category data with Federal tax debt. Selection criteria included
          tax-exempt organizations that were delinquent for five or more tax periods in paying
          their payroll or other tax and tax-exempt organizations that accepted funding from
          Medicare, Medicaid, and government grants. Not paying tax, especially payroll tax
          that is withheld from employees to be submitted to the Federal Government, shows a
          potential willful intent of tax avoidance or abuse. Forms 990 were reviewed to
          identify the executives and officers of the tax-exempt organizations and Medicare,
          Medicaid, and government grants. We also chose a judgmental sample of 52 of
          217 executives and officers from the 25 tax-exempt organizations. Selection
          criteria included executives and officers receiving large salaries.
          We selected a judgmental sample of 25 tax-exempt organizations and
          52 executives and officers because we wanted to focus on those organizations that
          generally had a history of not paying payroll or other tax, paid large salaries to
          executives and officers, and received Medicare, Medicaid, and government grants to
          fund operations. We also chose a judgmental sample because we did not plan on
          projecting the results to the entire population of tax-exempt organizations or the
          executives and officers.
       B. Reviewed Integrated Collection System case histories and Integrated Data Retrieval
          System data to identify installment agreements as well as liens, levies, and seizures
          against the 25 tax-exempt organizations and 52 executives and officers.
       C. Analyzed Form W-2 data to verify income for the judgmental sample of
          52 executives and officers.
       D. Reviewed Integrated Data Retrieval System data to identify Trust Fund Recovery
          Penalties assessed on accounts of the judgmental sample of 52 executives and
          officers.
III.   Determined what actions the EO function took in response to the June 2007 GAO report.
       A. Determined actions taken by the EO function to identify and resolve agreed unpaid
          balances for tax-exempt organizations and to identify and resolve abusive actions by
          officers and executives of tax-exempt organizations with agreed unpaid balances.
       B. Determined if feedback is received from the Small Business/Self-Employed Division
          on collection actions taken on tax-exempt organizations and their officers and
          executives.


                                                                                         Page 21
                                Some Tax-Exempt Organizations Have
                                 Substantial Delinquent Payroll Taxes



       C. Determined how the EO function uses the Combined Annual Wage Report analysis to
          identify and resolve discrepancies between payroll data reported to the Social
          Security Administration and data reported to the IRS.
       D. Determined how the EO function developed and used a modeling program to identify
          tax-exempt organizations with a high risk of payroll tax noncompliance.
       E. Determined actions taken by the EO function for the judgmental sample of
          tax-exempt organizations with unpaid payroll taxes from Step II.A.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: controls put into place in response to a
June 2007 GAO report (identification of unpaid tax through use of the Combined Annual Wage
Report and the Risk Modeling programs) as well as the exchange of information between the
Small Business/Self-Employed Division and the EO function. We evaluated these controls by
interviewing IRS officials, reviewing applicable documentation, and reviewing tax data
regarding tax-exempt organizations with significant Federal tax debt.




                                                                                           Page 22
                             Some Tax-Exempt Organizations Have
                              Substantial Delinquent Payroll Taxes



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Gerald T. Hawkins, Audit Manager
Andrew J. Burns, Lead Auditor
Margaret A. Anketell, Senior Auditor
Allen L. Brooks, Senior Auditor
Melinda H. Dowdy, Senior Auditor
Yolanda D. Brown, Auditor
Michael A. McGovern, Auditor
David M. Bueter, Program Analyst




                                                                                    Page 23
                             Some Tax-Exempt Organizations Have
                              Substantial Delinquent Payroll Taxes



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Secretary of the Treasury for Tax Policy
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                   Page 24
                                 Some Tax-Exempt Organizations Have
                                  Substantial Delinquent Payroll Taxes



                                                                                     Appendix IV

                 Types of Internal Revenue Code
             Section 501(c) Tax-Exempt Organizations

Section 501(c) of the I.R.C. lists several types of organizations that qualify for exemption from
Federal income taxes.

I.R.C. Section        Donations Deductible to Donors Summary
501(c)(1)             Yes, if made for exclusively public   Corporations Organized Under Act of
                      purposes                              Congress (including Federal Credit
                                                            Unions)
501(c)(2)             No                                    Title Holding Corporation for Exempt
                                                            Organization
501(c)(3)             Yes, generally                        Religious, Educational, Charitable,
                                                            Scientific, Literary, Testing for Public
                                                            Safety, to Foster National or International
                                                            Amateur Sports Competition, or
                                                            Prevention of Cruelty to Children or
                                                            Animals Organizations
501(c)(4)             No, generally                         Civic Leagues, Social Welfare
                                                            Organizations, and Local Associations of
                                                            Employees
501(c)(5)             No                                    Labor, Agricultural, and Horticultural
                                                            Organizations
501(c)(6)             No                                    Business Leagues, Chambers of
                                                            Commerce, Real Estate Boards, etc.
501(c)(7)             No                                    Social and Recreational Clubs
501(c)(8)             Yes, if for certain                   Fraternal Beneficiary Societies and
                      I.R.C. § 501(c)(3) purposes           Associations
501(c)(9)             No                                    Voluntary Employees’ Beneficiary
                                                            Associations
501(c)(10)            Yes, if for certain                   Domestic Fraternal Societies and
                      I.R.C. § 501(c)(3) purposes           Associations
501(c)(11)            No                                    Teachers’ Retirement Fund Associations


                                                                                               Page 25
                                     Some Tax-Exempt Organizations Have
                                      Substantial Delinquent Payroll Taxes




 I.R.C. Section          Donations Deductible to Donors Summary
 501(c)(12)              No                                        Benevolent Life Insurance Associations,
                                                                   Mutual Ditch or Irrigation Companies,
                                                                   and Mutual or Cooperative Telephone
                                                                   Companies
 501(c)(13)              Yes, generally                            Cemetery Companies
 501(c)(14)              No                                        State-Chartered Credit Unions, Mutual
                                                                   Reserve Funds
 501(c)(15)              No                                        Mutual Insurance Companies or
                                                                   Associations
 501(c)(16)              No                                        Cooperative Organizations to Finance
                                                                   Crop Operations
 501(c)(17)              No                                        Supplemental Unemployment Benefit
                                                                   Trusts
 501(c)(18)              No                                        Employee-Funded Pension Trust (created
                                                                   before June 25, 1959)
 501(c)(19)              No, generally                             Post or Organization of Past or Present
                                                                   Members of the Armed Forces
 501(c)(21)              No                                        Black Lung Benefit Trusts
 501(c)(22)              No                                        Withdrawal Liability Payment Fund
 501(c)(23)              No, generally                             Veterans Organization (created before
                                                                   1880)
 501(c)(25)              No                                        Title Holding Corporations or Trusts With
                                                                   Multiple Parents
 501(c)(26)              No                                        State-Sponsored Organizations Providing
                                                                   Health Coverage for High-Risk
                                                                   Individuals
 501(c)(27)              No                                        State-Sponsored Workers’ Compensation
                                                                   Reinsurance Organization
 501(c)(28)              No                                        National Railroad Retirement Investment
                                                                   Trust
 501(c)(29)              No                                        Consumer Operated and Oriented Plan
                                                                   Health Insurance Insurers
Source: IRS Publication 557, Tax-Exempt Status for Your Organization.



                                                                                                     Page 26
                                Some Tax-Exempt Organizations Have
                                 Substantial Delinquent Payroll Taxes



                                                                                  Appendix V

             The Amount of Federal Tax Debt Is
          Understated for Tax-Exempt Organizations

We determined that nearly $875 million in Federal tax debt was owed by tax-exempt
organizations as of June 16, 2012. However, the full extent of the debt is understated for the
following reasons.
      This amount does not include certain amounts due to the IRS from tax-exempt
       organizations that should have but did not file payroll taxes (nonfilers) or underreported
       payroll tax liability (underreporters).
      This amount does not include some recently assessed tax debts that appear as unpaid
       taxes and may involve matters that are routinely resolved between the tax-exempt
       organization and the IRS, with the taxes paid, abated, or both within a short period of
       time. For example, in our analysis we did not include unpaid payroll tax unless the
       delinquency was more than a year old.
      This amount does not include tax debt the IRS identified as not agreed to by the
       tax-exempt organization. For example, we eliminated from our analysis all tax debt that
       is being appealed or disputed in tax court.




                                                                                           Page 27
                       Some Tax-Exempt Organizations Have
                        Substantial Delinquent Payroll Taxes



                                                                  Appendix VI

    Tax and Wage Forms Referred to in This Report

Term          Definition

Form 940      Employer’s Annual Federal Unemployment (FUTA) Tax Return
Form 941      Quarterly Federal Tax Return
Form 944      Employer’s Annual Federal Tax Return
Form 990      Return of Organization Exempt From Income Tax
Form 990-EZ   Short Form Return of Organization Exempt From Income Tax
Form 990-N    e-Postcard
Form 1040     U.S. Individual Income Tax Return
Form W-2      Wage and Tax Statement




                                                                         Page 28
                                   Some Tax-Exempt Organizations Have
                                    Substantial Delinquent Payroll Taxes



                                                                                          Appendix VII

                                   Glossary of Terms

Term                    Definition
Abatement               I.R.C. § 6404 defines abatements as reductions in the amount of taxes owed. They
                        can occur for a variety of reasons, such as to correct errors made by the IRS or
                        taxpayers or to provide relief from interest and penalties.
Business Master File    The IRS database that consists of Federal tax-related transactions and accounts for
                        businesses. These include employment taxes, income taxes on businesses, and
                        excise taxes.
Compliance Checks       Compliance checks are reviews to determine if IRS customers adhere to
                        recordkeeping and information reporting requirements.
Data Center             A centralized storage facility that provides security and administration of data files.
Warehouse               It provides data and data access services enabling auditors to access historical
                        IRS data files.
Employer                A unique nine-digit number used to identify a taxpayer’s business account.
Identification
Number
Examinations            Examinations are legal proceedings, require participation by IRS customers, and
                        include a review of books and records to determine compliance with the I.R.C.
Exempt                  The IRS’s computer system for all organizations that have had an application for
Organizations           tax exemption processed. The system is also updated by returns received,
Master File             examination results, etc.
Government Grant        A government grant is an award of financial assistance from a government agency
                        to carry out an agreed-upon public purpose.
Fiscal Year             Any yearly accounting period, regardless of its relationship to a calendar year. The
                        Federal Government’s fiscal year begins on October 1 and ends on September 30.
Individual Master       The IRS database that maintains transactions or records of individual tax accounts.
File
Integrated Collection   An information management system designed to improve revenue collections by
System                  providing revenue officers with access to the most current taxpayer information
                        while in the field using laptop computers for quicker case resolution and improved
                        customer service.



                                                                                                     Page 29
                                 Some Tax-Exempt Organizations Have
                                  Substantial Delinquent Payroll Taxes




Term                  Definition
Integrated Data       The IRS computer system capable or retrieving and updating stored taxpayer
Retrieval System      account information.
Levy                  A method used by the IRS to collect outstanding taxes from sources such as bank
                      accounts and wages.
Lien                  A legal right to or interest in property as security for outstanding taxes.
Private Benefit/      A section 501(c)(3) organization must not be organized or operated for the benefit
Inurement             of private interests, such as the creator or the creator's family, shareholders of the
                      organization, other designated individuals, or persons controlled directly or
                      indirectly by such private interests. No part of the net earnings of a section
                      501(c)(3) organization may inure to the benefit of any private shareholder or
                      individual. A private shareholder or individual is a person having a personal and
                      private interest in the activities of the organization.
Revenue Officer       Revenue officers collect taxes due and are critical positions for achieving the
                      IRS’s mission.
Seizure               The taking of a taxpayer’s property to satisfy his or her outstanding tax liability.
Tax Gap               The gross Tax Gap is the total estimated tax liability that is not paid voluntarily and
                      timely. It is the difference between what taxpayers owe (all taxes legally owed,
                      including underreported and nonfiler amounts) and what the IRS collects through
                      timely voluntary compliance. The net Tax Gap is calculated by subtracting the
                      amount the IRS recovers through enforcement actions and late payments.
Tax Period            A tax period varies by tax type. For example, the tax period for payroll and excise
                      taxes is generally one quarter of a year. The taxpayer is required to file quarterly
                      returns with the IRS for these types of taxes, although payment of the taxes occurs
                      throughout the quarter.
Tax Year              A 12-month accounting period for keeping records on income and expenses used as
                      the basis for calculating the annual taxes due. For most individual taxpayers, the
                      tax year is synonymous with the calendar year.
Taxpayer Service      A part of the Accounts Receivable Dollar Inventory. These files are generated on a
and Returns           quarterly basis from both the Individual Master File and Business Master File.
Processing Category
File
Trust Fund Taxes      The IRS defines a trust fund tax as money withheld from an employee’s wages by
                      an employer and held in trust until paid to the U.S. Department of the Treasury.




                                                                                                    Page 30
                                 Some Tax-Exempt Organizations Have
                                  Substantial Delinquent Payroll Taxes



                                                                             Appendix VIII

    Management’s Response to the Draft Report

                                  DEPARTMENT OF THE TREASURY
                                   INTERNAL REVENUE SERVICE
                                     WASHINGTON, D.C. 20224

   COMMISSIONER
  TAX EXEMPT AND
GOVERNMENT ENTITIES
      DIVISION
                                          April 28, 2014


MEMORANDUM FOR MICHAEL E. MCKENNEY
               ACTING DEPUTY INSPECTOR GENERAL FOR AUDIT

FROM:              for Sunita B. Lough /s/ Donna Hansberry

SUBJECT:              Draft Audit Report - Some Tax-Exempt Organizations Have Substantial
                      Delinquent Payroll Taxes (Audit #2013-10-026)

Thank you for the opportunity to review and respond to the subject audit report. We concur
 with your findings that the majority of tax-exempt organizations pay their Federal payroll
taxes and only a small percentage of the exempt organizations are not meeting their filing
and payment obligations.

We would like to note that the report paints an incomplete picture about IRS enforcement
efforts on employment tax, particularly in regard to these 25 tax-exempt organizations. Our
efforts reflect that our tax administration and enforcement efforts are working. For example,
the IRS opened collection cases on all 25 organizations. In all, 17 of these cases have been
closed and our work continues on the eight remaining groups. Additionally, the report
discusses a "judgmental sample" of 52 officials from the 25 organizations. Of these 52,
the IRS has: imposed current assessments against 20 for the applicable payroll tax penalty;
collected the penalty in full from 4; determined that 22 were not liable for the penalty;
continued open investigations of 4; and proceeded with appeals of ***1*** who have
chosen to exercise those rights.

It's also important to note that reductions in the IRS budget have stretched enforcement
resources across the agency. In Fiscal 2014, the IRS budget had been reduced by
nearly $850 million less compared to Fiscal 2010. During the same time period, the IRS
has seen the number of key enforcement personnel drop by 3,000 positions.

As your report recognizes, current law does not authorize the IRS to revoke an
organization's tax-exempt status based on the organization's failure to pay payroll taxes.
The employment tax statute applies to all employers regardless of their income tax status,

                                                                                           Page 31
                                       Some Tax-Exempt Organizations Have
                                        Substantial Delinquent Payroll Taxes




whether as corporations that pay income tax, partnerships whose income tax liabilities pass through to
the partners, or public or private entities exempt from income tax. See IRC §§ 3111, et seq. As your
report recognizes, since the IRS Restructuring & Reform Act of 1998, Pub. L. No. 105-206, the IRS has
been organized functionally.

Consequently, the Small Business/Self-Employed Operating Division (SB/SE) collects the employment
tax even if the employer is an entity exempt from income tax. See Int. Rev. Man. 5.7 (Nov. 29, 2012).
Where the employer is a taxable entity, payroll tax underpayment does not preclude the application of
other tax provisions, such as accelerated depreciation or credit for research activities, although those may
be substantial amounts officially classified as tax expenditures. See e.g. Budget of U.S. Gov't FY '14,
Analytical Perspectives, Table 16-3 (reflecting tax expenditures of $17.85 Billion for accelerated
depreciation of machinery and equipment). Similarly, payroll tax underpayment does not preclude the
application of tax-exemption provisions.

You selected 25 tax-exempt organizations that "appeared to be among the worst examples involving
Federal tax debt" for your audit sample. You found that these 25 organizations owed approximately $25
million in unpaid payroll tax, penalties, and interest as of June 2012. All of these cases were selected for
inclusion in the Federal Payment Levy Program (FPLP) for automatic/continuous levy against Federal
Payments. The FPLP did collect money on 6 cases. (Some of the grants that these organizations
received were state grants that are not subject to the FPLP.) Additionally, collection cases were opened
on all 25 organizations; 17 cases are fully paid, paid with an accepted offer in compromise, in
bankruptcy, or currently not collectible. Of the 8 cases remaining open as of February 2014, three of
these organizations have entered into installment agreements or have installment agreement applications
pending. Further, the total unpaid assessments, not including accrued penalties and interest, owed by
these 8 organizations is approximately $11.5 million.

SB/SE did not seize property from any of the 25 organizations, but as you acknowledge in your report,
SB/SE did consider seizures in appropriate cases. We appreciate your recognition that, when considering
the seizure of property, SB/SE faces the dilemma of seizing property or serving levy actions for the
organization's funds intended to support the tax-exempt organizations that, if seized, could potentially
result in closing the entity and its services to the community.

You also reviewed a judgmental sample of 52 responsible officials from these 25 tax- exempt
organizations, but the report does not specify any selection criteria for this sample. The 25 cases
are not representative of any lapse in tax administration. You determined that "22 officers were
 involved in abusive activity." SB/SE reviewed the cases of these 52 responsible officials. There are
current assessments against 20 of these officials for the trust fund recovery penalty (TFRP). Of the
remaining 32 officials, SB/SE determined that 22 were not responsible for the TFRP, 4 have fully paid
the TFRP, *******1******** have appealed our determination that they are liable for the TFRP, and
 4 have open investigations to determine whether they are responsible officials under the law. More




                                                                                                      Page 32
Some Tax-Exempt Organizations Have
 Substantial Delinquent Payroll Taxes




                                        Page 33
Some Tax-Exempt Organizations Have
 Substantial Delinquent Payroll Taxes




                                        Page 34
Some Tax-Exempt Organizations Have
 Substantial Delinquent Payroll Taxes




                                        Page 35
                               Some Tax-Exempt Organizations Have
                                Substantial Delinquent Payroll Taxes



                                                                                Appendix IX

                       Office of Audit Comments
                      on Management’s Response

In response to our draft report, the Commissioner, Tax Exempt and Government Entities
Division, included some general comments and assertions that we believe warrant additional
comment. We have included portions of management’s response and our related comments
below.
Management Statement: Additionally, collection cases were opened on all 25 organizations,
17 cases are fully paid, paid with an accepted offer in compromise, in bankruptcy, or currently
not collectible. Of the eight cases remaining open as of February 2014, three of these
organizations have entered into installment agreements or have installment agreement
applications pending. Further, the total unpaid assessments, not including accrued penalties
and interest, owed by these 8 organizations is approximately $11.5 million.
       Office of Audit Comment: Most of the 25 organizations have not fully paid their
       Federal tax debt subsequent to the end of our audit fieldwork. The amount of Federal tax
       debt owed by the organizations, including penalties and interest, has grown to more than
       $30 million. Most of the case closing actions mentioned by the IRS in its response for
       the 17 organizations do not reflect actual repayments of delinquent taxes and generally do
       not decrease tax debt under Federal accounting standards. For example, closing cases as
       currently not collectable does not reduce tax debt; instead, it means that the IRS is no
       longer actively pursuing collection of delinquent taxes from the tax-exempt organization.
Management Statement: We would like to note that the report paints an incomplete picture
about IRS enforcement efforts on employment tax, particularly in regard to these 25 tax-exempt
organizations.
       Office of Audit Comment: TIGTA provided extensive information on the
       enforcement actions that the IRS had taken related to the 25 organizations and their
       officers. For example, Figure 3 in the report shows that 32 Federal tax liens and
       21 Federal tax levies were filed by the IRS in order to get the 25 tax-exempt
       organizations to pay their taxes. In addition, we show that Trust Fund Recovery Penalties
       were filed against 22 of the 52 officers we reviewed in the amount of almost $2.4 million.




                                                                                         Page 36
                                Some Tax-Exempt Organizations Have
                                 Substantial Delinquent Payroll Taxes



Management Statement: Your report makes the illogical conclusion that “tax-exempt
organizations can continue to avoid paying these (payroll) taxes” because current law “does not
authorize the IRS to revoke tax-exempt status based on an organization’s failure to pay payroll
taxes.”
       Office of Audit Comment: The statement in our report is accurate. As the IRS noted,
       revocation of tax-exempt status is an action of last resort, and the IRS is not authorized to
       revoke tax-exempt status based on an organization’s failure to pay payroll taxes. The
       IRS itself acknowledged that more aggressive enforcement actions are generally not
       taken against I.R.C. § 501(c)(3) and other tax-exempt organizations because the IRS
       faces the dilemma of seizing property or serving levy actions that could potentially result
       in closing the entity and its services to the community. We reported that the IRS is
       currently unable to require changes to the board of directors or the executives responsible
       for an organization’s tax compliance problems. Although the IRS took significant
       actions to attempt to collect payroll taxes from the 25 organizations that we reviewed,
       most have not fully paid their Federal tax debt. Thus, despite the IRS’s extensive
       collection efforts, tax-exempt organizations are able to avoid paying payroll taxes
       while maintaining their tax-exempt status. This is particularly troubling since
       I.R.C. § 501(c)(3) charitable status is a significant benefit, and some of these
       organizations benefit from millions of dollars of Federal payments from programs like
       Medicare. Because the IRS faces limitations in the actions it can take, we made the
       recommendation that the IRS work with the Department of the Treasury to evaluate
       whether legislation is needed to strengthen the IRS’s ability to enforce payroll tax
       noncompliance by tax-exempt organizations.
Management Statement: Here, the organizations may have been victims of embezzlement
rather than entities that deliberately siphoned their earnings to managers. Your report includes
no facts to show that any of the tax-exempt organizations collaborated or conspired with the
responsible officials.
       Office of Audit Comment: We did not conclude on any of the 25 cases that any
       tax-exempt organizations collaborated or conspired with the responsible officials to
       siphon earnings to managers or embezzle funds. Our point was that a number of the
       executives running the tax-exempt organizations with significant tax problems also had
       significant individual tax problems.




                                                                                            Page 37
